No.
I N THE

'1,upreme Qtourt of tbe Wniteb '1,tate~
MICHAEL COWELS AND MI CHAEL MIMS,
Petitioners,
V.

THE FEDERAL BUREAU OF INVESTIGATION,
CHRISTOPHER WRAY, AND PAULA WULFF,
R espondents.
On Petition for a Writ of Certiorari
to the "Cnited States Court of Appeals
for t he First Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this C urt, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I h ave, this 20th day of December, 20 19,
served three copies of the Petition for a Writ of Certiorari upon each party
separately represented in t hic pro eeding by causing them to be deposited with the
United States Postal Service, with first-class postage prepaid, addressed to counsel
of record at the addresses listed below:

Noel J. Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondents
Annapurna Balakrishna
US Attorney's Office
John Joseph Moakley United States Courthouse
One Courthouse Way, Suite 9200
Boston, Massachusetts 02210
Annapurna.Balakrishna@usdoj.gov
Counsel of Record for Respondents
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the petition to be served on the parties at the email addresses
listed above.
I further certify that all persons required to be served have been served.

lifi:

~f--J

GOODWIN PROCTER LL

100 Northern Avenue
Boston, MA 02210
dapfel@goodwinlaw.com
(617) 570-1000
Counsel for Petitioner Michael Cowels

December 20, 2019

2

